U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Indian River County, Florida, et al. v. Department of Transportation, et al.,
No. 19-1304

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 18,
2020, and placed on the docket on May 20, 2020. The government’s response is now due, after
one extension, on July 20, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of
time to and including August 21, 2020, within which to file a response for all respondents.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1304
INDIAN RIVER COUNTY, FLORIDA, ET AL.
DEPARTMENT OF TRANSPORTATIONM ET AL.

JEFFREY ALAN LAMKEN
MOLO LAMKEN LLP
THE WATERGATE
600 NEW HAMSPHIRE AVENUE, N.W.
WASHINGTON, DC 20037
202-556-2000
JLAMKEN@MOLOLAMKEN.COM
202-556-2001(Fax)

